HHS/OIG, Audit -"Review of Overpayment Collections Made for the Aid to Families with Dependent Children Program by the Los Angeles County Department of Public Social Services,"(A-09-02-00072)"Review of Overpayment Collections Made for the Aid to Families with Dependent Children Program by the Los Angeles County Department of Public Social Services,"(A-09-02-00072)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Overpayment Collections Made for the Aid to Families with
Dependent Children Program by the Los Angeles County Department of Public Social
Services," (A-09-02-00072)
May 2, 2003
Complete
Text of Report is available in PDF format (579 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Federal regulations
require that states pursue Aid to Families with Dependent Children overpayments
made prior to October 1, 1996, and make appropriate refunds to the Federal
Government.  This final report points out that California had not made
such refunds for overpayments collected by Los Angeles County (estimated
at approximately $24 million federal share).  We recommended a financial
adjustment for the $24 million and procedural corrections.  The State
generally concurred with our recommendations.